No.
EY
In the Supreme Court of the United States

aaEaEEEIEEENnemeeenmmeemeeeeeeeenaeen eee

JOSE JESUS CRUZ
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

 

The Petitioner, Jose Cruz, through his attorney of record who was appointed
pursuant to the Criminal Justice Act by both lower courts, and pursuant to Rule 39.1
of this Court, respectfully requests leave to proceed in forma pauperis before this
Court, and to file the attached Petition for Writ of Certiorari to the United States
Court of Appeals for the Tenth Circuit without prepayment of filing fees and costs.

In support of this motion, Petitioner states that he was found indigent by

both the district court and the Tenth Circuit pursuant to 18 U.S.C. ยง 3006A.
Carey G-Bhalla

Counsel of Record via CJA

Law Office of Carey C. Bhalla, LLC
1306 Rio Grande Blvd. NW
Albuquerque, New Mexico 87104
carey@bhallalaw.com
